                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     American Recovery and
                     Reinvestment Act Site Visit of the
                     Elizabeth City Well Field
                     Expansion Project,
                     Elizabeth City, North Carolina

                     Report No. 12-R-0109               December 8, 2011




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                             Jean Bloom
                                                   Phil Cleveland
                                                   Patrick McIntyre
                                                   Shannon Schofield




Abbreviations

CFR           Code of Federal Regulations
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
NCDENR        North Carolina Department of Environment and Natural Resources


Cover photo: Well head at the Elizabeth City Well Field Expansion Site, Elizabeth City,
             North Carolina. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov.                     write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               12-R-0109
                                                                                                       December 8, 2011
                        Office of Inspector General


                        At a Glance
Why We Did This Review              American Recovery and Reinvestment Act Site Visit
                                    of the Elizabeth City Well Field Expansion Project,
The U.S. Environmental              Elizabeth City, North Carolina
Protection Agency Office of
Inspector General conducts site
                                     What We Found
visits of American Recovery
and Reinvestment Act of 2009
                                    We conducted an unannounced site visit of the Elizabeth City Well Field
(Recovery Act) clean water and
                                    Expansion Project in Elizabeth City, North Carolina, in July 2010. We toured the
drinking water projects. The
                                    project site; interviewed city, NCDENR, engineering firm, and prime contractor
purpose of the visits is to
                                    and subcontractor personnel; and reviewed documentation related to Recovery
confirm compliance with
                                    Act requirements.
selected Recovery Act
requirements. We selected the
                                    In the draft report, we questioned whether three manufactured goods used on the
Elizabeth City Well Field
                                    project met the Buy American requirements of Section 1605 of the Recovery Act,
Expansion Project in Elizabeth
                                    and whether engineering costs claimed were allocable to the Recovery Act
City, North Carolina, for
                                    project. In response to the draft report, the city provided additional information to
review.
                                    support Buy American compliance for one item. The city took corrective action
                                    and added the two remaining items to the project’s Buy American de minimis
Background
                                    waiver list. We reviewed the de minimis list and concurred with the action taken
                                    by the city to include those items on the list. We analyzed additional engineering
The city received a $2,366,255
                                    support received from Region 4 and the city, and agree that the costs incurred
Recovery Act loan from the
                                    prior to the Recovery Act were needed to make the project shovel-ready and,
North Carolina Department of
                                    therefore, were allocable to the project.
Environment and Natural
Resources (NCDENR) under
                                    No additional issues or concerns came to our attention that would require action
the Drinking Water State
                                    from the city, NCDENR, or the U.S. Environmental Protection Agency.
Revolving Fund program. The
loan included $1,183,127 in
principal forgiveness. The city
will expand its well field with
four new wells to meet the
state’s 12 hour/day maximum
pumping requirement.


For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20111208-12-R-0109.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                        December 8, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Elizabeth City Well Field Expansion Project,
          Elizabeth City, North Carolina
          Report No. 12-R-0109


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gwendolyn Keyes Fleming
               Regional Administrator, Region 4


This is our report on the subject site visit conducted by the Office of Inspector General of
the U.S. Environmental Protection Agency. The report summarizes the results of our site
visit of the Elizabeth City Well Field Expansion Project.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine the
city’s compliance with selected requirements of the Recovery Act pertaining to the Drinking
Water State Revolving Fund program. The city received a $2,366,255 Recovery Act loan from
the North Carolina Department of Environment and Natural Resources with $1,183,127 of
principal forgiveness.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://www.epa.gov/oig. If you or your staff have any
questions regarding this report, please contact Melissa Heist, Assistant Inspector General for
Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Director of Forensic
Audits, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act                                                                                             12-R-0109
Site Visit of the Elizabeth City Well Field
Expansion Project, Elizabeth City, North Carolina


                                      Table of Contents 

   Purpose          ....................................................................................................................    1


   Background .................................................................................................................             1


   Scope and Methodology.............................................................................................                       1


   Results of Site Visit.....................................................................................................               2


           Buy American Requirements................................................................................                        2

           Wage Rate Requirements ....................................................................................                      2

           Financial Management and Reporting .................................................................                             3

           Contract Procurement ..........................................................................................                  3     


   Recommendations ......................................................................................................                   4


   City and Region 4 Responses....................................................................................                          4


   Office of Inspector General Comment ......................................................................                               5


   Status of Recommendations and Potential Monetary Benefits..............................                                                  6




Appendices
   A       City of Elizabeth City Response to Draft Report ............................................                                     7


   B       EPA Region 4 Response to Draft Report .........................................................                                 11 


   C       Distribution .........................................................................................................          13

Purpose
            The purpose of our unannounced site visit was to determine the City of Elizabeth
            City’s compliance with selected requirements of the American Recovery and
            Reinvestment Act of 2009 (Recovery Act), P.L. 111-5, pertaining to the Drinking
            Water State Revolving Fund (DWSRF) program.

Background

            On April 14, 2009, the U.S. Environmental Protection Agency (EPA) awarded a
            grant for $65,625,000 to the North Carolina Department of Environment and
            Natural Resources (NCDENR) under the Recovery Act to capitalize its revolving
            loan fund for financing the construction of drinking water facilities, green
            infrastructure, program administration, and drinking water related activities. In
            addition to the regulatory requirements in Title 40 Code of Federal Regulations
            (CFR) Chapter 1, Subchapter B, the assistance award was subject to 2 CFR Part
            176, Award Terms For Assistance Agreements That Include Funds Under the
            American Recovery and Reinvestment Act of 2009, Public Law 111-5.

            In June 2009, the city entered into a loan agreement with NCDENR under the
            DWSRF program to expand its well field with four new wells to meet the state’s
            12 hour/day maximum pumping requirement. The city received a Recovery Act
            loan totaling $2,366,255, which included $1,183,127 of principal forgiveness.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements, we did not perform
            this assignment in accordance with generally accepted government auditing
            standards. Specifically, we did not perform certain steps that would allow us to
            obtain information to assess the city’s internal controls and any previously
            reported audit concerns. As a result, we do not express an opinion on the
            adequacy of the city’s internal controls or its compliance with all federal, state, or
            local requirements.

            We conducted an unannounced site visit during the week of July 19, 2010. On
            March 23–24, 2011, we performed a follow-up visit to the engineering firm hired
            by the city to obtain Buy American certification documents. During our visits we:

               1. 	 Toured the project site
               2. 	 Interviewed employees and managers on site, as well as city, engineering,
                    NCDENR, and prime contractor personnel
               3. 	 Reviewed documentation provided by the city, its contracted engineering
                    firm, NCDENR, and prime and subcontractors on the following matters:
                        a. 	 Buy American requirements under Section 1605 of the Recovery
                             Act



12-R-0109                                                                                     1
                       b. 	 Wage Rate requirements (Davis-Bacon Act) under Section 1606 of
                            the Recovery Act
                       c. 	 Limits on funds and reporting requirements under Sections 1604
                            and 1512 of the Recovery Act
                       d. Contract procurement

Results of Site Visit
            Based on our site visit, no issues or concerns came to our attention that would
            require action from the city, NCDENR, or EPA. The results of our work are
            summarized below.

            Buy American Requirements

            In the draft report, we questioned whether three manufactured goods used on the
            project met the Buy American requirements of Section 1605 of the Recovery Act.
            We changed our position after analyzing additional information provided by the
            city in response to the draft report. The information provided demonstrated that
            one item met the requirements for substantial transformation. The city also
            submitted a revised de minimis list, which included two items originally
            questioned for not meeting Buy American requirements. We reviewed the Buy
            American de minimis waiver list and concurred with the action taken by the city
            to include those items on the list.

            We did not identify any issues or concerns regarding Buy American requirements.
            Based on our interviews and work performed, the city, its contracted engineer,
            and contractor are fully aware of the Buy American requirements under Section
            1605 of the Recovery Act. The Buy American requirements were included in
            contract documents. The city relied on its contracted engineer to review Buy
            American certifications. The engineer stayed up to date with Buy American
            guidance by visiting the NCDENR website and attending training. The engineer
            and prime contractor rejected and substituted some of the manufacturers based
            upon Buy American guidance. Based on our physical observations of materials on
            site, our review of Buy American supporting documentation, and Internet research
            performed on the manufacturers, materials used for the project comply with Buy
            American requirements.

            Wage Rate Requirements

            We did not identify any issues or concerns regarding the city’s compliance with
            wage rate requirements. Section 1606 of the Recovery Act requires all mechanics
            and laborers employed on projects funded directly by—or assisted in whole or in
            part with—Recovery Act funds to be paid wages at rates no less than the locally
            prevailing rate, as determined by the U.S. Department of Labor. These wages are
            commonly known as Davis-Bacon Act wages and generally include a requirement
            that employers submit certified payroll reports to the U.S. Department of Labor.


12-R-0109                                                                                     2
            The contractor submitted signed certified payrolls to certify compliance with wage
            rate requirements. We selected two pay periods for review and testing—the pay
            periods beginning May 3, 2010, and July 19, 2010. We reviewed certified payrolls
            and verified that the contractor and subcontractors were paying their employees at
            least the minimum required prevailing wage rates.

            Financial Management and Reporting

            We did not identify any issues or concerns with the city’s ability to meet the
            reporting requirements under Section 1512 of the Recovery Act. We reviewed
            documents that showed the reimbursement process for the city. The city submits
            its reimbursement request to the NCDENR’s Division of Water Quality,
            Construction Grants and Loans Section. Based on our review of these documents,
            no issues or concerns came to our attention.

            We obtained copies of the Recovery Act jobs created/retained reports submitted
            to the NCDENR. These reports are used in preparing the report required under
            Section 1512 (c) of the Recovery Act. Based upon the information provided,
            nothing came to our attention that caused us to take exception with the
            subrecipient’s compliance with Section 1512 (c).

            We did not identify any issues or concerns with the city’s compliance with
            Section 1604, which states that Recovery Act funds cannot be used for any casino
            or other gambling establishment, aquarium, zoo, golf course, or swimming pool.
            Based upon our review of the loan document and contract project specifications,
            and observations at the site, the funds were not being used for any prohibited
            items identified in the Recovery Act.

            Contract Procurement

            We reviewed the city’s procurement of its contractor. We did not identify any
            issues or areas of concern with contract procurement. The city solicited bids twice
            for the project and received one bid each time. A notice of award was signed by
            the city in 2007. An EPA Region 4 employee initially communicated to
            NCDENR that the project should be re-bid based on the age of the bid and the
            possibility of reducing the project’s price. The city provided legal documents
            from its attorney that indicated the city could potentially lose a lawsuit because
            the city had signed a notice of award with the contractor. NCDENR managers
            requested specific statutory citations and language from EPA that would support
            their decision to have the city re-bid the project. EPA headquarters determined
            that as long as the contractor is willing to incorporate all necessary Recovery Act
            provisions and requirements in the contract, and comply with the provisions, the
            project can move forward without being re-bid. Change order 1 incorporated the
            Recovery Act requirements into the contract.




12-R-0109                                                                                  3
Recommendations
            We have no recommendations.

City and Region 4 Responses
            The Office of Inspector General received comments to the draft report and
            supplemental information from the city and Region 4. NCDENR did not provide
            written comments to our draft report.

            The city disagreed with the following findings in the site visit report:

               1.	 The city did not provide sufficient documentation to assure compliance
                   with the Buy American requirements. 
               2.	 The city claimed reimbursement for engineering costs outside of the scope
                   of the Recovery Act project.  

            The city provided supplemental documentation for the electrical switchgear and
            included the site lights and poles on their project de minimis list. The city
            disagreed that the non-Recovery Act-funded equipment was subject to Buy
            American provisions because it was supplied and owned by the city’s electric
            distribution utility and not the water and sewer utility, which are two separate
            enterprise accounts. The city disagreed with the engineering costs finding because
            the purpose of the project was to increase the safe yield of the city’s well field,
            and these were necessary preliminary assessment costs needed for the project to
            accomplish that goal. The full text of the city’s comments and the Office of
            Inspector General detailed responses are included in appendix A.

            Region 4 agreed with the Buy American issues identified in the report for the
            electrical switchgear, and the site lights and poles. The region disagreed that the
            non-Recovery Act-funded transformer was subject to the Buy American
            provisions because it was not included in the engineering plans and specifications
            for the project, nor was it procured or installed by the project contractor and/or
            subcontractors. The region disagreed with the recommendation to recover the
            engineering costs associated with the planning phase of the project because the
            state reviewed the costs and determined that they were eligible expenses per state
            procurement laws and regulations. The full text of Region 4’s comments is
            included in appendix B.

            On October 18, 2011, we held an exit conference with representatives from EPA
            Region 4, NCDENR, and the city. We were informed that Region 4 worked
            collaboratively with NCDENR on the Region 4 response. Region 4, NCDENR,
            and the city disagreed with the Office of Inspector General’s determination that
            non-Recovery Act-funded equipment was subject to Buy American requirements.
            However, the city reluctantly agreed to include the non-Recovery Act-funded
            equipment on the de minimis list, to avoid a finding. Region 4, NCDENR, and the


12-R-0109                                                                                   4
            city disagreed that the engineering costs for well rehabilitation and well number
            12 were outside the scope of the project. Region 4 and the city subsequently
            provided additional supporting documentation to substantiate their position.

Office of Inspector General Comment
            We modified our report based upon the additional Buy American documentation
            received from the city. We evaluated the additional documentation provided to
            justify substantial transformation for the electrical switchgear and determined that
            it was sufficient to meet the guidelines for substantial transformation. We
            reviewed and concurred with the action taken by the city to include the costs for
            site lights and poles and non-Recovery Act-funded equipment on the de minimis
            list.

            Based upon our exit conference and review of the supplemental documentation
            provided, we agree that the engineering costs incurred for rehabilitating existing
            wells and exploring well number 12’s viability were necessary to make the
            Recovery Act-funded well field project shovel-ready. We adjusted the report
            accordingly.




12-R-0109                                                                                   5
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                   No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-R-0109                                                                                                                        6
                                                                                         Appendix A


          City of Elizabeth City Response to Draft Report

          MAYOR                                                                    CITY COUNCIL MEMBERS
       ROGER McLEAN                                                                      JEAN M. BAKER

     MAYOR PRO TEM                                                                    MICHAEL E. BROOKS

      ANITA HUMMER                                                                       RICKEY E. KING 

      CITY MANAGER                                                                  LENA HILL-LAWRENCE

     RICHARD C. OLSON                                                                   BETTY S. MEGGS 

        CITY CLERK                                                                     JOSEPH A. STIMATZ

DIANNE PIERCE-TAMPLEN, MMC                                                            JOHNNIE B. WALTON





                 CITY OF                  ELIZABETH                          C I T Y

    

   September 7, 2011

   Robert Adachi
   Director of Forensic Audits
   75 Hawthorne Street
   San Francisco, CA 94105

   RE: Site Visit Report - Elizabeth City Well Field Expansion Project
       EPA Project No. OA-FY10-A-0203

   Mr. Adachi,
   The City has reviewed the Report of the Office of Inspector General USEPA Recovery and
   Reinvestment Act site visit of the Elizabeth City Well Field Expansion Project, Elizabeth City
   North Carolina. The City does not agree with either of the significant findings of the site visit
   report, which are as follows:

       1.	 The City did not provide sufficient documentation to assure compliance with the Buy
           American requirements of the section 1605 of the Recovery Act.
       2.	 The City claimed costs for engineering services outside of the scope of the Recovery Act
           Project.

   Elizabeth City offers the following additional information to be considered by the EPA Office of
   Inspector General before the Site Visit Report is published as a Final Report for General
   Circulation and before the Region 4 Regional Administrator must determine or negotiate
   appropriate remedial action.

       1.	 The City did not provide sufficient documentation to assure compliance with the Buy
           American requirements under section 1605 of the Recovery Act. There were three
           findings regarding the Buy American requirements of the Act:


   12-R-0109                                                                                       7
      A.	 The Siemens Manufacturer of the electric switch gear provided a substantial
          transformation checklist, for which EPA requested additional information. In part,
          Elizabeth City rejected submittal 6 and 6a requiring additional information of the
          ‘Substantial Transformation Documentation.’ Attached are copies of the final
          documentation Submittal 6b and, as requested by EPA, and a memorandum from
          Siemens Industry, Inc. providing the additional documentation regarding compliance
          with the Buy American provisions of the Act. Based on the attached Siemens
          information and the City’s April 14th response to EPA’s communications, the City
          believes that we provided full documentation and that the Siemens Electric Switch
          Gear equipment is compliant with the Buy American provisions.
            OIG Response: The city provided additional information from Siemens regarding the
            manufacturing process followed for its electric panels. This includes fabricating raw
            materials (sheet metal, copper, and aluminum/copper or aluminum) into a specific
            shape/form (panel board enclosure/interior conductors), combining and assembling
            together with other assemblies (circuit breakers) and raw materials (screws, wiring) to
            produce an electrical panel board for a specific order/application. Based on our
            analysis of this information, we have determined that sufficient documentation has
            been provided to support substantial transformation. As a result, we adjusted the
            report accordingly.

      B.	 The Second finding regarding the Buy American provisions of the Act was in
          reference to the Acuity Brands lighting for site lights and poles. The City agreed that
          the Buy American documentation was not sufficient to comply with the Act.
          However, on July 19th we asked the contractor, AG Schultz, to include the light poles
          on the ‘De-Minimums’ list of materials and supplies. Attached is Schulte’s letter to us
          including ‘Item H. - KAD light poles and fixtures.’ To date, the ‘De-Minimums’ items
          for the project total $8,894.41, or less than 2.2% of the materials, which is well
          within the 5% De-Minimums allowed by the Act.
            OIG Response: We reviewed the revised de minimis list and agree with the action
            taken. We adjusted the report accordingly.

      C.	 The third and final finding regarding the Buy American provisions of the Act included
          a transformer labeled “Made in Mexico” valued at $3,641.00. The finding of the site
          visit report was that the Buy American provisions of the Act precluded the intentional
          splitting of ARRA projects into separate and smaller contracts to avoid Buy American
          coverage.
            The City strongly objects to the consideration that actions were taken to “split the
            purchase” to avoid compliance. The transformer is supplied and owned by the City’s
            Electric Distribution Utility and not the Water and Sewer Utility. The transformer in
            question was supplied by the Electric Distribution Utility to deliver the proper current
            at the proper voltage for the well pumps.
            The City does acknowledge that both the Electric Distribution Utility and the Water
            and Sewer Utility are Enterprise Funds of the City, managed by the City. The two
            funds are established under North Carolina Law, specifically NCGS §159-26, as
            separate financial entities. I have enclosed the pertinent pages of the City of


12-R-0109                                                                                       8
            Elizabeth City ‘Comprehensive Annual Financial Report’, which reflect that they are
            separate, stand alone funds. To infer that the City’s Water and Sewer Utility had
            control over equipment purchased by the City’s Electric Distribution Utility would
            mean that every power supply company that services an ARRA funded project would
            be subject to the Buy American Provisions of the Act.
            If EPA elects to determine that the Electric Distribution Utility is subject to the Buy
            American Provisions of the Act, the City would request that the transformer cost be
            added to the De-Minimums list.

            OIG Response: While we understand that this transformer was purchased by the
            City’s Electric Distribution Utility, which has its own enterprise funds separate from
            the Water and Sewer Utility, we disagree that the equipment should not comply with
            Buy American provisions of the Recovery Act. An April 28, 2009, EPA guidance
            document, American Recovery and Reinvestment Act of 2009, which discusses
            implementation of Buy American provisions of P.L. 111-5, states in part that “. . . any
            project that is funded in whole or in part with ARRA funds, must comply with the
            Buy American provisions.” The guidance document further defines a “project” as all
            construction necessary to complete the building or work regardless of the number of
            contracts or assistance agreements involved so long as all contracts and assistance
            agreements awarded are closely related in purpose, time, and place. The transformer
            was purchased by the city’s Electrical Utility in May 2010 to deliver the proper
            current and the proper voltage for the well pumps. This clearly demonstrates the
            relationship in purpose (for the well pumps), time (during the construction of the
            Recovery project), and place (for use at the well field). Further, the EPA guidance
            document states that Buy American provisions will apply to prevent splitting projects
            into separate and smaller contracts or assistance agreements, particularly where the
            activities are integrally and proximately related to the whole. The transformers are
            integrally related to the project because they supply the necessary voltage to the
            pumps and are proximately related because they are located in three of four well head
            electrical sheds at the project site. Given the close relationship in purpose, time, and
            place, and the integral and proximate location of the transformer to the overall
            project, we believe that the Buy American provisions apply. After the exit
            conference, the city updated its de minimis list to include the transformers. We agree
            with that action and adjusted the report accordingly.


2.	 The City claimed costs for engineering services outside of the scope of the Recovery Act
    Project:

       The purpose of the project was to increase the safe yield of the City’s well field.
       Projects of this magnitude require preliminary assessment of options to accomplish the
       goal. Investigation of the existing well field and alternative well location is certainly
       within the generally accepted standards of preliminary engineering for this work. The
       City believes that all of the engineering costs submitted for ARRA reimbursement are a
       legitimate project cost for well field expansion or to increase yields. Attached is a letter




12-R-0109                                                                                        9
       dated June 10, 2011 from the City to David Giachini of NC-DENR’s Public Water Supply
       Section explaining the engineering costs on this project, dating back 2006.
       Contrary to the comments in the Site Visit Report, we are of the understanding that
       NCDENR officials do agree that all engineering costs submitted for this project are
       legitimate, reimbursable costs.

       OIG Response: Based upon our exit conference and review of the supplemental
       documentation provided, we agree that the engineering costs incurred for rehabilitating
       existing wells and exploring well number 12’s viability were necessary to make the
       Recovery Act-funded well field project shovel-ready. We adjusted the report accordingly.


I trust that the information submitted in this letter will provide enough background so that the
final ‘Site Visit Report’ will not have any significant findings contrary to the fact that the
Elizabeth City Well Field Expansion Project was in full compliance with the requirements of the
Presidents ‘Recovery and Reinvestment Act’.

Sincerely,




Richard C. Olson
City Manager
City of Elizabeth City


cc: 	Jessica G. Miles
     Public Water Supply Section Chief
     North Carolina Department of Environmental and Natural Resources

Email copy: John Trefry {trefry.john@epa.gov}




12-R-0109                                                                                     10
                                                                                      Appendix B

             EPA Region 4 Response to Draft Report
                                        September 27, 2011

MEMORANDUM

SUBJECT:	 EPA Region 4 Response to Draft Audit Report:
          American Recovery and Reinvestment Act Site Visit of the Elizabeth City Well
          Field Expansion Project, Elizabeth City, North Carolina
          Project No. OA-FY10-A-0203

FROM: 	        Gwendolyn Keyes Fleming
               Regional Administrator

TO: 	          Shannon M. Schofield, CFE
               Senior Auditor
               EPA - Office of Inspector General

This is the response to the August 8, 2011, draft report issued by the Office of Inspector General
on the American Recovery and Reinvestment Act (ARRA) Site Visit of the Elizabeth City Well
Field Expansion Project Elizabeth City, North Carolina (the City). We reviewed the report issued
by your office and compared your findings to the information available in the project file
maintained by the State of North Carolina Drinking Water State Revolving Fund program and
supplemental information provided by the borrower. Based on this information, we offer the
following response to your draft findings:

1.	     Buy American Issues: The Environmental Protection Agency agrees that the information
        included in the draft report on the City was accurate in accordance with the Buy
        American provisions for two of the three items identified. Regarding the foreign made
        switchgear manufactured by Siemens, two options for corrective action were given to the
        City: replace the foreign made switchgear manufactured from Siemens using American
        made parts; or, if replacement of this item is unattainable, include the components of the
        switchgear in the de-minimis log for the project. With regard to the site lights and poles
        manufactured by Acuity, the City will add the items to the de-minimis log for the project.
        To date, the de-minimis items included in the log totaled $8,894.41, which is about 2.2
        percent of the total material cost for this project. Therefore, the addition of these items
        will not cause the City to exceed the five percent threshold established by the nationwide
        waiver of the Buy American requirements of ARRA.
        The EPA has determined that the transformer identified in the draft report is not subject
        to the Buy American provisions. A review of the State’s project files revealed that the
        transformer is not part of the project, was not included in the engineering plans and
        specifications and was not procured or installed by the contractor and/or subcontractors
        for this project. The transformer is owned by the City’s electric distribution utility and


12-R-0109                                                                                       11
       not the Water and Sewer Authority. The City provided documentation to support their
       claim that these are separate financial entities established under North Carolina law,
       NCGS 159-26. As such, we do not concur with the proposed recommendation to apply
       the Buy American requirements of ARRA to the utility transformer, as the purchasing,
       installation and operation of this piece of equipment resides within the City’s electric
       distribution utility.

2.	    Other matters, Engineering Costs: The EPA does not concur with the proposed
       recommendation to recover the engineering costs associated with the planning phase of
       the project. The invoices and costs associated with the project were reviewed by the State
       and determined to be eligible expenses according to State procurement laws and
       regulations. Also, attached is a memo dated June 10, 2011, from Elizabeth City’s Public
       Utilities Director to the State’s project engineer which we believe sufficiently justifies the
       specific engineering costs associated with this project. Further, the project summary
       supports and justifies the costs associated with the tasks performed as part of the
       preliminary engineering work as contained in the invoices that the City received for the
       planning and design phase of the Well Expansion Project. EPA believes that this
       information provides sufficient documentation regarding the questioned engineering costs
       and proposes no further action.
If you or your staff has any further questions regarding this response, please contact James D.
Giattina, Water Protection Division Director, at (404) 562-9345.

Attachments (3)
1. Status of Region 4 Recommendations
2. June 10, 2011 Letter to David Giachini
3. Site Visit Report




12-R-0109                                                                                         12
                                                                                 Appendix C


                                    Distribution
Office of the Administrator
Regional Administrator, Region 4
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Assistant Administrator for Administration and Resources Management
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division
Audit Follow-Up Coordinator, Region 4
Public Affairs Officer, Region 4
Director, Water Protection Division, Region 4
Chief, Grants and SRF Management Section, Region 4
Section Chief, North Carolina Department of Environment and Natural Resources,
   Public Water Supply Section
Team Leader, North Carolina Department of Environment and Natural Resources,
   Public Water Supply Section, Loans and Grants Unit
City Manager, Elizabeth City, North Carolina
Public Utilities Director, Elizabeth City, North Carolina




12-R-0109                                                                               13
